<html>
<title> - NORTH KOREA: AN UPDATE ON SIX-PARTY TALKS AND MATTERS RELATED TO THE RESOLUTION OF THE NORTH KOREAN NUCLEAR CRISIS</title>
<body><pre>[Senate Hearing 109-226]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-226
 
 NORTH KOREA: AN UPDATE ON SIX-PARTY TALKS AND MATTERS RELATED TO THE 
             RESOLUTION OF THE NORTH KOREAN NUCLEAR CRISIS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                             JUNE 14, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
25-470                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........     3
Hill, Hon. Cristopher R., Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, Department of State, Washington, DC.     5
    Prepared statement...........................................     6
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

                                 (iii)

  


 NORTH KOREA: AN UPDATE ON SIX-PARTY TALKS AND MATTERS RELATED TO THE 
             RESOLUTION OF THE NORTH KOREAN NUCLEAR CRISIS

                              ----------                              


                         TUESDAY, JUNE 14, 2005

                                       U.S. Senate,
                               Foreign Relations Committee,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar, chairman of the committee, presiding.
    Present: Senators Lugar, Hagel, Chafee, Murkowski, Biden, 
Feingold, and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    The committee meets today to again review the status of the 
Six-Party Talks in Beijing, intended to bring about a peaceful 
conclusion to North Korea's nuclear program. One year has 
passed since the last round of Six-Party Talks occurred in 
Beijing. This delay is troubling because the North Korean 
regime's drive to build nuclear weapons and other weapons of 
mass destruction poses a grave threat to the Pacific region and 
American national security. We also are concerned about the 
transfer of North Korean weapons, materials, and technology to 
other countries or terrorist groups. In addition, we must 
remain vigilant to avoid a miscalculation that could 
unintentionally lead to war.
    Joining us are Ambassador Christopher Hill, the Assistant 
Secretary of State for East Asia and President Bush's chief 
negotiator at the Six-Party Talks. He is accompanied by 
Ambassador Joseph DeTrani, who serves as Special Envoy to the 
Six-Party Talks. Both of our witnesses have approached these 
negotiations with innovation and energy. We are grateful to 
them for their commitment to pursuing a peaceful solution and 
for their willingness to share their thoughts with the 
committee on multiple occasions.
    This hearing takes place at a critical moment in the 
efforts of the United States to prevent the expansion of North 
Korea's nuclear program. Pyongyang has said recently that it 
will return to the Six-Party Talks, which they left a year ago. 
But the North Korean regime has not provided a date or 
sufficient assurances that this will actually happen.
    The committee is eager to hear the witnesses' estimates of 
whether this offer is genuine. We also look forward to a clear 
explanation of the administration's plan for dealing with the 
North Korean nuclear program.
    Although I understand that there may be a need for some 
ambiguity in the United States policy toward North Korea, it is 
not evident that this ambiguity has been constructive or even 
intentional. Frequent news reports, and our own conversations 
with U.S. officials, suggest that there are many opinions 
within the Bush administration over how to proceed with North 
Korea. Each of these divergent opinions may have some validity 
and may deserve to be debated as part of the policymaking 
process. But if our policy is to be effective, our ultimate 
course must be internally consistent and explainable to our 
allies.
    I am particularly concerned that as Secretary Hill and 
Ambassador DeTrani have pressed Russian, Chinese, Japanese, and 
South Korean officials for cooperation in moving North Korea 
back to the table, their initiatives have been complicated by 
others who have leaked sensitive information related to 
administration strategy.
    For example, on May 7 of this year, a Washington Post 
article revealed sensitive and confidential details of 
discussions held between Secretary Hill and Chinese officials 
in connection with the Six-Party Talks. Chinese officials later 
protested to United States officials regarding the betrayal of 
confidence.
    A great deal of planning and expertise has been applied to 
United States policy toward North Korea. But the implementation 
of this planning must be consistent. With this in mind, I am 
hopeful that our witnesses can address a series of questions 
that I believe get to the heart of the North Korea dilemma.
    First, do we have any evidence that the North Koreans are 
serious about ending their intransigence and returning to the 
Six-Party Talks? Or are recent statements by Pyongyang merely 
an effort to buy time or placate other Asian nations?
    Second, if the North Koreans do return to the talks, do we 
have a reasonable expectation that some combination of factors 
could lead them to agree to a solution that would satisfy our 
core objective that their nuclear program be verifiably 
dismantled? If so, what are those factors?
    Third, will the other countries involved in the Six-Party 
Talks be willing to exert the degree of pressure on North Korea 
that most observers believe is necessary to achieve a 
satisfactory resolution?
    Fourth, how will we judge when the Six-Party Talks no 
longer represent a viable course?
    Fifth, in the event substantive progress is not made in the 
Six-Party Talks, what are our options?
    Sixth, in dealing with North Korea, how viable is a 
strategy of expanded sanctions and isolation, which is favored 
by some within the Bush administration? How would such a policy 
achieve our objectives?
    We want the Six-Party Talks to succeed, and we thank 
officials of China, Japan, South Korea, and Russia for their 
countries' partnership with the United States in the six-party 
process. As I have stated previously, success at the table in 
Beijing could lead to an ongoing and perhaps expanded six-party 
format, as a venue for discussion on other Northeast Asia 
issues.
    We welcome our witnesses and look forward to their insights 
on this extremely important subject.
    At this point, I would like to recognize the distinguished 
ranking member of the committee, Senator Biden, for his opening 
statement, to be followed by Mr. Hill's statement. Then we'll 
probably have a recess, as a rollcall vote is anticipated 
sometime around 10 p.m., and return for questioning of the 
witnesses.
    Senator Biden.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELEWARE

    Senator Biden. Thank you, Mr. Chairman, I welcome both our 
witnesses, and thank you for holding this important hearing.
    I think it's time to state the obvious--the 
administration's policy thus far has been a failure. Not only 
have we been unable to constrain North Korea's nuclear program, 
but we've also distanced ourselves from our South Korean 
allies. Although there seems to be some bit of rapprochement 
this past weekend.
    Let's be clear--North Korea's leaders are solely 
responsible for the choices they've made, and they've made a 
series of very bad choices by pursuing nuclear weapons that 
threaten the United States and our friends and allies in 
Northeast Asia.
    But this administration has also made a series of poor 
choices, in my view. It has not fulfilled the responsibility to 
pursue the policies that stand a realistic chance of mitigating 
and ultimately reversing North Korea's threat.
    On the President's watch, North Korea has declared itself a 
nuclear power, produced enough plutonium to build at least six 
or eight nuclear weapons, and made vague threats about testing, 
and on the verge of testing a weapon. The North has entered a 
Safe Guard Agreement with the International Atomic Energy 
Agency, withdrawn from the Nuclear Non-Proliferation Treaty, 
and reactivated its nuclear reactor. In March, the North, 
again, unloaded spend fuel from its nuclear reactor, and is now 
preparing to harvest more plutonium.
    The consequences of all of this are significant. Global 
nonproliferation efforts have been wounded, and confidence in 
our ability to ensure peace and stability in Northeast Asia 
have been shaken. Moreover, a financially strapped North Korea 
could try to export some material, or even a nuclear weapon 
that puts a nuke on the auction block. The bidders will not be 
our friends. I'm not predicting that, but that is a 
possibility. The route to a nuclear 9/11 would be clear from 
that perspective.
    And how did all this happen? What can be done to repair the 
damage? Over the past 3 years, the administration has been 
paralyzed by internal policy divisions, from my perspective. 
Most recently, Secretary Rice had to chastise ``a senior 
Defense Department official'' for suggesting the administration 
was preparing to take the North Korean issue to the United 
Nations Security Council. President Bush has failed to resolve 
the dispute between those who advocate a policy regime change, 
and those who argue for talks to eliminate North Korea's 
nuclear weapons in return for sanctions relief, economic 
assistance, and diplomatic normalization. This combination of 
ambivalence and confusion has produced no recognizable policy 
on, perhaps, the most critical security issue we're facing this 
day.
    North Korea probably produced enough plutonium to build one 
or two nuclear weapons in the early nineties, but the North's 
nuclear facilities were frozen, and placed under international 
monitoring from 1994 to 2002, pursuant to the agreed framework 
negotiated by President Clinton. As a result, the North Koreans 
did not produce one gram of fissile material between 1994 and 
the end of 2002.
    Around the time of the 2000 Presidential election, North 
Korea began in earnest, a secret, illicit program to produce 
highly enriched uranium, suitable for use in nuclear weapons. 
The Bush administration rightly confronted Pyongyang regarding 
the HEU program on October 2002, but it was not until April 
2003 when the United States finally sat down to talk with the 
North about the crisis and how it might be resolved. Three 
subsequent rounds of talks have failed to yield any measurable 
progress, and more than a year has passed since the last round 
of talks, at which the United States finally put a draft deal 
on the table.
    The President says he ``certainly hopes''--that's his 
quote--that his policy will work. But hope is not a plan. Our 
current path leads to one of two bad outcomes--either the 
United States essentially will acquiesce to the North's serial 
production of nuclear weapons, or we'll find ourselves in a 
military confrontation with a desperate nuclear arms regime.
    A third way remains possible. It's time for some hard-
headed preemptive diplomacy. First, I would respectfully 
suggest the President should appoint a Special Envoy to 
coordinate this policy and represent us at the Six-Party Talks. 
No offense to those present today, but it seems to me that we 
need someone who can not only make sure that our Government 
speaks with one voice, but also engage North Koreans at a level 
higher than the Vice Foreign Minister. George A.W. Bush or 
James Baker could fit that bill, as many others could.
    Second, the President must set priorities. Job one is 
ending North Korea's production of plutonium, removing all 
fissile material, and dismantling its nuclear-weapons-related 
facilities. We should propose a phased, reciprocal, verifiable 
deal to eliminate North Korea's nuclear weapons program, 
terminate its export of ballistic missiles, and more closely 
integrate the North economically and politically into the 
international community. The proposal put on the table last 
June is not comprehensive enough and does not have enough flesh 
on the bones, in my view, to get any reaction. We should 
differentiate immediate threats--such as the North's plutonium 
stockpiles--from long-term threats such as the pursuit of 
uranium enrichment. But at the end of the day, all of the 
North's nuclear-weapons-related efforts must cease.
    If the President takes these steps, success is not 
guaranteed by any stretch of the imagination. But I can 
guarantee the current approach will not succeed. Following this 
approach is the best chance of getting China fully engaged. 
China should do more to lean on North Korea to change course, 
but they will only do so if we're making a sincere effort to 
engage the North. China and South Korea will not support, in my 
view, United States policy of coercive regime change, and the 
option should be abandoned.
    Mr. Chairman, it seems to me we have to convince North 
Korea that it will pay a very high price for nuclear 
adventurism. Nobody wants to appease North Korea, but we must 
also demonstrate that a nuclear-weapons-free North Korea will 
be accepted by us, despite our dislike for our regime. So far, 
I don't believe we've done either. Until we do both, I think 
we're running an unacceptable risk of nuclear disaster.
    I look forward to the testimony of our witnesses, and I 
will be listening to see whether we should expect more of the 
same from the administration, or whether some new policy is in 
the offering, and if so, whether the new policy has ingredients 
that promise success. I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Biden, and I 
will recognize Secretary Hill. Your full statement will be made 
a part of the record, and you can proceed any way that you 
wish.

  STATEMENT OF HON. CHRISTOPHER R. HILL, ASSISTANT SECRETARY, 
BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Hill. Thank you very much, Mr. Chairman. Thank you for 
this opportunity to discuss with the committee the efforts of 
the United States and like-minded countries to deal with the 
threat of North Korea's nuclear programs. Special Envoy for 
Six-Party Talks, Ambassador Joseph DeTrani is here with me for 
support in this discussion. Ambassador DeTrani does not have a 
separate statement, but would welcome the opportunity to 
respond to your questions.
    I want to emphasize two points today: First, the 
President's policy is to achieve the full denuclearization of 
the Korean Peninsula by peaceful, multilateral diplomacy 
through the Six-Party Talks.
    Second, to change its place in the world and to get the 
benefits of trade, aid, and investment, North Korea must 
address the concerns of its neighbors, and in the international 
community. To date, it has not demonstrated a readiness to do 
so.
    While North Korea's nuclear ambition is decades old, our 
efforts to deal with it in a comprehensive manner through 
multilateral means began only a few years ago. We participated 
in three rounds of Six-Party Talks in August 2003, February 
2004, and June 2004. Last June we tabled a substantive and 
comprehensive proposal. During each session, the United States 
met separately and directly with all of the parties, including 
the North Korean delegation. While all parties agreed to rejoin 
the talks by the end of September, and despite statements that 
it remains committed to the six-party process, the North 
Koreans have not yet agreed to return to the table on a date 
certain, or to respond formally to our proposal.
    We've had meetings with all of the parties since June 2004, 
including with the North Koreans. Ambassador DeTrani met with 
the North Korean U.N. Permanent Representative five times in 
the New York channel in August, November, and December, last 
year, and May and June of this year.
    We engaged in those meetings because we wanted the North 
Koreans to hear the United States position directly from us. 
These meetings are important to ensure communication, but they 
cannot take the place of the negotiations in the Six-Party 
Talks.
    I'll quote what the President said, last month, on the 
North Korean nuclear issue to make the United States position 
very clear. ``We want diplomacy to be given the chance to 
work.'' As Secretary Rice said recently, we have no intention 
to attack or invade North Korea. We deal with North Korea as a 
sovereign nation in the Six-Party Talks, and in the United 
Nations.
    And while, of course, there is a range of options to deal 
with the North's nuclear threat, simply ignoring them is not 
one of them. Our policy is to pursue a diplomatic solution, but 
we need to see results from the diplomacy.
    North Korea's unwillingness to return to the table casts 
increasing doubts on how serious it really is about ending its 
decades old nuclear ambitions. That said, the other parties are 
unwavering in their opposition to North Korea's possession of 
nuclear weapons. Pyongyang must make a fundamental decision, a 
strategic decision that its nuclear programs make it less--not 
more--secure, and it needs to eliminate them permanently, 
thoroughly, and transparently, subject to effective 
verification. We're working together with the other parties to 
bring the North Koreans to understand that it's in their own 
self-interest to make that decision, and will continue to work 
closely with the Congress and with this committee as we 
proceed.
    So that concludes my statement, Mr. Chairman, and 
Ambassador DeTrani and I look forward to responding to your 
questions.
    [The statement of the Mr. Hill follows:]

 Prepared Statement of Hon. Christopher R. Hill, Assistant Secretary, 
    Bureau of East Asian and Pacific Affairs, Department of State, 
                             Washington, DC

    Thank you, Mr. Chairman, for this opportunity to discuss with the 
committee the efforts of the United States and like-minded countries to 
deal with the threat of North Korea's nuclear programs. The Special 
Envoy for Six-Party Talks, Ambassador Joseph DeTrani, is with me for 
this important discussion. Ambassador DeTrani does not have a separate 
statement, but would welcome the opportunity to respond to your 
questions.
    I want to emphasize two points today.
    First, the President's policy is to achieve the full 
denuclearization of the Korean Peninsula by peaceful multilateral 
diplomacy, through the Six-Party Talks. The substantive and 
comprehensive proposal we made at the last round of Six-Party Talks, 
almost 1 year ago, remains on the table, and we are prepared to discuss 
it when the DPRK returns to the talks.
    Second, the DPRK has a historic opportunity now to improve its 
relations with the international community and to reap the full rewards 
of trade, aid, and investment. But to change its place in the world, it 
must address the concerns of its neighbors and the international 
community. To date, the DPRK has not demonstrated any readiness to do 
so.

                            SIX-PARTY TALKS

    The United States has adhered to three basic principles to resolve 
the North's nuclear threat. First, we seek the dismantlement, 
verifiably and irreversibly, of all DPRK nuclear programs--nothing 
less. We cannot accept a partial solution that does not deal with the 
entirety of the problem, allowing North Korea to threaten others 
continually with a revival of its nuclear program. Second, because the 
North's nuclear programs threaten its neighbors and the integrity of 
the global nuclear nonproliferation regime, the threat can best be 
dealt with through multilateral diplomacy. Third, we will not reward 
North Korea for coming into compliance with its past obligations.
    While the DPRK's nuclear ambition is a decades-old problem, our 
effort to deal with it, in a comprehensive manner through multilateral 
means, began only a few years ago.
    We worked closely with all of North Korea's neighbors to lay the 
groundwork for the Six-Party Talks, and the first round was held in 
Beijing August 27-29, 2003. All six parties at that first meeting 
agreed on the objective of a denuclearized Korean Peninsula.
    The second round of Six-Party Talks was in February 2004. The 
parties agreed to regularize the talks, and to establish a working 
group to set issues up for resolution at the plenary meetings. At the 
second round of talks, the ROK offered fuel aid to the DPRK, if there 
was a comprehensive and verifiable halt of its nuclear programs as a 
first step toward complete nuclear dismantlement. Other non-U.S. 
parties subsequently expressed a willingness to do so as well.
    The third working group and plenary sessions at the third round of 
talks, held nearly a year ago in Beijing, were useful and constructive. 
The United States tabled a comprehensive and substantive proposal, 
which the DPRK at the time called ``serious,'' which it certainly was. 
All parties agreed to meet again by end-September 2004.
    During each of the working group and plenary meetings, the United 
States met separately and directly with all of the parties, including 
the DPRK delegation.
    Despite its commitment to rejoin the talks by end-September, and 
its vague statements that it remains committed to the six-party 
process, the DPRK has not yet agreed to return to the table. While the 
DPRK has made public statements about our June proposal, it has not 
responded formally to us.
    We have had meetings with all the parties since June 2004, 
including the North Koreans. These meetings are important to ensure 
communication, but they are not negotiations. They cannot take the 
place of the negotiations in the Six-Party Talks to achieve the 
dismantlement of the North's nuclear programs or end the North's 
international isolation.
    Ambassador DeTrani has met with the DPRK Permanent Representative 
to the United Nations, Ambassador Pak Gil-yon, five times in the so-
called New York Channel, in August, November, and December of last 
year, and in May and June 2005. We engaged in those meetings because we 
wanted the North Koreans to hear the United States position directly 
from us. The North Koreans indicated they are committed to the six-
party process, but did not agree to return to the table by a date-
certain.
    I'll quote what the President said last month, on the North Korea 
nuclear issue, to make that position crystal clear: ``We want diplomacy 
to be given the chance to work.'' As Secretary Rice said recently, we 
have no intention to invade or attack. We deal with North Korea as a 
sovereign nation, in the Six-Party Talks and at the United Nations.
    While, of course, there is a range of options to deal with the 
North's nuclear threat, simply ignoring it is not one of them. Our 
policy is to pursue a peaceful diplomatic solution, but we need to see 
results from the diplomacy.
    Since becoming Assistant Secretary in March, I have traveled to 
East Asia three times, meeting with my counterparts in Japan, the 
Republic of Korea, and China, to consult on how to move the six-party 
process forward. I also met with the Russian senior official in 
Brussels in May. My colleagues from those governments have made 
frequent visits to Washington. All five parties have called on the 
North to return to the talks and negotiate seriously to end its nuclear 
programs and its international isolation. The North has cited a variety 
of pretexts for refusing to rejoin the talks, even as it restates its 
commitment to the six-party process and the goal of a denuclearized 
Korean Peninsula. That casts increasing doubt on how serious the DPRK 
really is about ending its nuclear ambitions. Frankly, we don't at this 
point know the answers.
    Certainly, the developments we have seen on the part of the North 
Koreans have not been encouraging. Since the last round of Six-Party 
Talks just a year ago, the DPRK has failed to abide by its commitment 
to another round of talks by September 2004; announced that it had 
manufactured nuclear weapons and was indefinitely suspending 
participation in the Six-Party Talks; declared itself to be a nuclear 
weapons state; announced that its self-declared missile test moratorium 
was no longer binding; conducted a short-range ballistic missile test; 
reportedly threatened to transfer nuclear material; and announced that 
it was reprocessing another load of plutonium from spent fuel rods from 
the Yongbyon reactor.
    The other parties are unwavering in their opposition to North 
Korea's possession of nuclear weapons.
    China has the closest relationship with North Korea of any of the 
six parties and it is for this reason that we continue to engage the 
Chinese leadership on the North's lack of willingness to make a 
nonnuclear Korean Peninsula a reality. The Chinese leadership at the 
most senior levels has--in recognition of the destabilizing effect a 
nuclear Korea could have on its own security interests--delivered 
pointed messages to the North on denuclearization and returning to the 
talks. We believe China can and should do more. China should do 
whatever is necessary to get its neighbor back to the table.
    We have excellent coordination with Japan and the Republic of 
Korea. President Bush and President Roh, at their June 10 summit in 
Washington, agreed to continue to work closely together for the 
denuclearization of the Korean Peninsula. We are also in regular touch, 
at the highest levels, with the Government of Japan, a valued partner 
in the six-party process. Russia, too, has expressed opposition to the 
possession of nuclear weapons by the DPRK.

                       NORTH KOREA'S OPPORTUNITY

    To succeed in achieving the peaceful resolution of the North Korea 
nuclear issue, the North has got to return to the Six-Party Talks and 
stay there for serious negotiations.
    Against the backdrop of the Six-Party Talks, the DPRK appears to be 
trying to undertake some measures in response to its disastrous 
economic situation. The door is open for the DPRK, by addressing the 
concerns of the international community, to vastly improve the lives of 
its people, enhance its own security, move toward normalizing its 
relations with the United States and others, and raise its stature in 
the world.
    The United States, working with our allies and others, remains 
committed to resolving the nuclear issue through peaceful diplomatic 
means. While we are not prepared to reward the DPRK for coming back 
into compliance with its international obligations, we have laid out 
the path to a peaceful resolution of the nuclear issue.
    Of course, to achieve a wholly transformed relationship with the 
United States, North Korea must address other issues of concern to us 
and the international community as well. It must change its behavior on 
human rights, address the issues underlying its appearance on the U.S. 
list of state-sponsored terrorism, eliminate all its weapons of mass 
destruction programs and missile technology proliferation, and adopt a 
less provocative conventional force disposition. It must put an end to 
such illegal activities as counterfeiting, narcotics smuggling, and 
money laundering.
    The starting point is the strategic decision now by Pyongyang to 
recognize that its nuclear programs make it less, not more, secure, and 
to decide to eliminate them permanently, thoroughly, and transparently, 
subject to effective verification. We are working together with the 
other parties to bring the DPRK to understand that it is in its own 
self-interest to make that decision.
    We will continue to work closely with the Congress and this 
committee as we proceed.
    That concludes my statement, Mr. Chairman, and Mr. DeTrani and I 
look forward to responding to your questions.

    The Chairman. We'll commence a 10-minute series, although I 
suspect the first round will end fairly abruptly, as we have 
our rollcall vote, and we need to return to that.
    Let me just get back to the point that I am trying to make, 
and that is apparently, there may be a deliberate ambiguity. 
The United States position has been one of promoting regime 
change, that is, the end of the government. Comments have been 
made about the human rights conditions of the people of North 
Korea as unacceptable for any human beings anywhere. And at the 
same time, there is a feeling on the part of others that if 
diplomacy is to work, that regime change cannot be the 
objective. But the regime that we're dealing with needs to have 
a feeling that, in fact, we are not going to invade, overthrow 
them, but we are going to try to negotiate with them to achieve 
the end of their nuclear program. They would remain then as a 
regime, a sovereign state, and they would make a decision to 
get rid of the program.
    What do you have to say about this? It filters back and 
forth through not only press commentary, but also some official 
comment. It leads not only the North Koreans, but also our 
other partners in the Six-Party Talks. Maybe even some 
Americans wonder what is, really, our objective in North Korea.
    Mr. Hill. Well, our objective, quite simply, is to achieve 
denuclearization of the Korean Peninsula, that's an objective 
we share with all of the parties in the six-party process. Now, 
sure, we have gone almost a year without a negotiation, so I 
think it's understandable why people express some concerns 
about this. I think it's understandable why people worry 
whether the Government of North Korea is truly interested in 
pursuing a negotiation.
    But I think, fundamentally, what we're really looking for 
is a government in North Korea that will agree to denuclearize, 
that is, a government that will change its attitude toward that 
subject, and change its behavior on that subject. So we have 
made very clear that if the regime in North Korea feels it's 
going to be safer, or will do better with nuclear weapons, it's 
very much operating under a false assumption. It has to get rid 
of these weapons. And I think what's important--even though it 
is difficult to wait for a year--but I think it's important to 
keep a consistent message, to be very clear of what we need out 
of this negotiation.
    Understandably, when one waits so long, one looks at 
whether the format is right, and certainly one is tempted to 
look at the proposals we've made and start changing some of the 
proposals, although I would argue that runs the risk of our 
negotiating with ourselves, and while the North Koreans sit 
without any sense of impatience, or without enough of a sense 
of impatience, and wait for us to sweeten the offer, so I think 
this is a time when we have to be a little stubborn on this.
    The Chairman. Well, we've taken the position that we cannot 
deal successfully, bilaterally, with the North Koreans. You've 
pointed out that these conversations have occurred sort of on 
the fringes of the Six-Party Talks. But all the evidence 
appears to be that the Chinese position is one in which they 
are not prepared to use the economic pressures that are clearly 
there in terms of provision of energy and food for the people 
of the country. Also, the South Koreans are certainly 
ambivalent to stronger measures in terms of the regime, and as 
a matter of fact, they are very, very much fearful of the 
prospects of any military action that would have great 
ramifications for their country.
    Now, given these situations, we plow ahead, indicating that 
all of the countries really have to exert pressure. It can't be 
unilateral or bilateral negotiations here. What are the 
prospects, leaving aside the transigence of the North Koreans, 
for dealing with a ``Six-Power Talk'' in which the Chinese and 
the South Koreans, to take two, have viewpoints that are hardly 
persuasive, in terms of pressures through normal diplomacy?
    Mr. Hill. Well, Mr. Chairman, I agree with you that China 
has been reluctant to use the full range of leverage that we 
believe China has. China has had North Korea as a close friend 
and ally for some 50 years now, and China has very close 
political connections, very close personal connections with the 
leadership, and very close economic connections, and our 
request to China is to do what it has to do in order to bring 
them to the table. We're not going to tell them how to do that, 
we're not going to tell them whether they need to use economic 
leverage on their neighbor, but we're going to expect that as 
the host to the process that they figure out a way to get 
everyone to the table.
    While there are differences on tactics, where the Chinese 
are reluctant to use pressure, and Mr. Chairman, as you've 
said, the South Koreans are also reluctant to use that type of 
direct pressure, I want to emphasize there's absolutely no 
daylight between us on the issue of disarming North Korea. No 
one wants to see North Korea maintained as a nuclear state, no 
one is prepared to accept, say, a few nuclear weapons in North 
Korea's hands--everyone agrees that North Korea must be 
denuclearized, and I would argue that, although the six-party 
process has not succeeded in its primary mission, that is, of 
the nuclear disarming of North Korea, it has succeeded in 
bringing us closer together with these other partners.
    I wonder if I could ask Ambassador DeTrani to say a few 
words also.
    The Chairman. Of course.
    Ambassador DeTrani. Mr. Chairman, I would only add that the 
proposal we presented in June of last year, the going-in 
proposal, the plan was, and the agreement at that time was, 
that we would reconvene almost immediately thereafter to 
discuss the particulars of the U.S. proposal, and the DPRK 
proposal, and the ROK proposal, and the United States was 
looking forward to elaborating on what we meant by security 
assurances of a multilateral nature, and the whole question of 
economic cooperation, and ultimately a roadmap toward a 
normalized relationship.
    I just want to add, Mr. Chairman, I know it's obvious to 
all of us, that we were hoping that we would have that working 
group session in August, and then we'd have the plenary in 
September. It was the DPRK, at the end of August and then in 
September, that made it very clear they were not ready for a 
working group session to discuss the respective proposals, and 
they weren't prepared to come back to a plenary session to 
discuss, not only the proposals, but the whole initiative that 
speaks to denuclearization, and the economic cooperation, and 
the security assurances they have demanded. So I think the 
United States has shown a great deal of flexibility and, I will 
say, creativity, in proposing something in June that we were 
ready to discuss fully. But it was the DPRK that walked away 
from the process, claiming a hostile policy on the part of the 
United States. We have pursued this DPRK claim of a U.S. 
hostile policy at great length with the DPRK, and we still have 
not discovered truly what they meant by a hostile policy. Our 
point is, ``Come back to the table and we'll discuss the 
particulars,'' and that's where it should be done, and 
heretofore, for this past year, they've not been back.
    The Chairman. Well, it could be that the North Koreans take 
the position that all of the other parties find their situation 
to be unacceptable. Regarding the creation of new weapons, 
perhaps the parties are not really prepared to do very much 
about it. In essence, each has reasons for living with the 
predicament, which may be more desirable than more precipitous 
actions that change the situation. That even pertains to us. I 
would agree that apparently you would formulate a policy in 
which you add some economic incentives, some other aspects to 
this, but even this has never seemed to be totally agreeable on 
our side. To say the least, our administration has not talked 
about a comprehensive revamping of the North Korean economy or 
incentives to bring them into the world. This has been 
contradicted by, it seems to me, arguments that we ought to get 
rid of the regime altogether, if that's really our purpose. 
This would lead the North Koreans to feel that we haven't made 
up our own minds, quite apart from others that are surrounding 
them there. It may be one reason that they don't find it 
necessary to hasten to the table. But these are just simply 
curbstone opinions. The purpose of having an oversight hearing 
is to find out from you what is really going on.
    Ambassador DeTrani. If I may, Mr. Chairman, just one point 
on that we made it very clear to the North Koreans, and our 
partners in the six-party process, the other four countries, 
have made it very clear, that denuclearization is the objective 
here. And we are all prepared to look at the security 
assurances, the economic package we've spoken about, energy--
looking at the energy needs, upgrading the grid, looking at 
training of their scientists, engineers, and roadmap that leads 
to normalized relations down the road--these are the issues 
that the DPRK insists they need to address and we're prepared 
to address them.
    What we have not seen, however, on the DPRK side is a very 
comprehensive discussion of their nuclear program, and of our 
demands that the denuclearization be a comprehensive one. DPRK 
avoidance of this discussion may explain why they were not 
willing to come back to the table at the end of September.
    The Chairman. Thank you.
    Mr. Hill. If I could add, Mr. Chairman, I think your 
question speaks to the fundamental issue of why haven't they 
come back, and I think it's important to bear in mind, this 
nuclear program of theirs is a decades-old program, it didn't 
start with Mr. Kim Jong-il, it started with his father. It is a 
very fundamental question for them, and I think it's fair to 
say that they are not convinced yet that they have to do away 
with this program, and I think they are sort of testing our 
mettle. They're testing to see whether we're going to get into 
endless arguments with our partners, and waiting to see whether 
we're going to start negotiating with each other and with 
ourselves to sweeten the pot for them, and so they feel there's 
some advantage in waiting. And I think what's important for us 
to do is to make it clear to the North Koreans that, while we 
don't think time is on our side, it's not on their side either.
    And indeed, Mr. Chairman, you mentioned the issue of South 
Korea's policy. The South Koreans at the recent North-South 
meetings made very clear to the North Koreans that what they 
can do through that channel is going to be very limited, very 
limited indeed, as long as North Korea does not negotiate the 
end of its nuclear weapons programs.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden. Thank you. Mr. Secretary, Mr. Ambassador, 
thank you for being here, we appreciate it very much. You know, 
Chris, you indicated that the question asked by the chairman 
would make it seem like we're negotiating with ourselves; well, 
we are. In case you haven't noticed, we are. You all are 
negotiating internally, you don't have it straight. You don't 
have it straight. And the idea that there's--I think the single 
biggest miscalculation here, two seasoned diplomats and a 
seasoned administration now--is that one thing isolation has 
produced, a diplomatically immature North.
    I have no idea whether they want to give up their nuclear 
weapons, whether there's any circumstance under which they'll 
give them up. I have two objectives, simply from my standpoint 
sitting on this side of the aisle, on this side of the bench, I 
should say, and that is, that one of two things--either we get 
them to give them up, or if they don't give them up, we make 
sure that we are not the bad guy. That we're on the same side 
as the rest of the folks in the region, they're there with us. 
Right now, no matter what you say, they're not with us. They're 
with us generically, but they don't think we've gone far 
enough, individually we've been importuned by leaders from 
those countries saying, ``What's the deal? What are you guys 
doing?''
    And look, Chris, you said, Mr. Secretary, you said 1 year 
has passed. One year has passed disastrously. We're a lot worse 
off in terms of our security today than we were a year ago 
today. It will be even worse off a year from now. And so, the 
idea that, you know, it's like, ``Well, you know, this is a 
negotiation to buy a piece of real estate, you know, it's not 
going to go anywhere unless a hurricane blows it away, it's 
going to be there, so a year, we can hold out. We can take our 
time here.''
    I respectfully suggest that time is not on our side either 
here, and so it gets down to a very basic thing. It seems to 
me, that if you're sitting there, notwithstanding, Mr. 
Ambassador, you're correct, you tabled a proposal that--in case 
you haven't noticed--a lot of people here in Washington openly 
wondered what you meant by it. All kinds of editorials 
written--what do you mean by it? If we're wondering what you 
meant by it, what do you think they think in the North you 
meant by it? See, that's the point I don't get--I don't think 
we should be giving anything that you don't think is 
appropriate to the North, but the one thing I don't get is that 
you can't have a proposal tabled that says normalization is 
down the road if these weapons are given up, and then have a 
series--which I don't have the time to read--a series of 
statements from the Vice President, from the Ambassadorial 
Nominee to the United Nations, from the Secretary, from the 
Secretary of Defense, and so on, about this regime, and how bad 
it--and they are bad guys. They are bad guys.
    But the more we talk about them being bad guys, it throws 
into question whether or not--are we willing to live with bad 
guys who don't have a nuclear capacity, or not? That's the 
question the bad guy's asking, at a minimum. And that's what 
the Senator keeps asking, and we all keep asking--none of us 
think these guys are good guys. They're bad guys. The question 
is, are we prepared to live with them? And, even going beyond 
that, are we prepared to enhance their nation's economic 
circumstances in the process? That's the stuff that sends 
shivers up the spines of half of your administration.
    It's bad enough we're going to talk about living with the 
bad guys, but my Lord, if part of that means an economic 
reorganization of the North, a countrywide proposal, a way in 
which to move forward, that's like me taking out my rosaries 
and holding them up and saying, by the way, there's no trinity 
and I'm still a Catholic. It's not possible.
    So, I respectfully suggest you are debating with yourself. 
Or else too many people are talking for this administration--
not you guys, personally. So, I don't know why you act 
surprised when you wonder why it wasn't clear. We're not 
negotiating with the Germans, or the Brits or the French, or 
even Putin. We're negotiating with a guy who, up to now, has 
been a hermit, who's been totally isolated, has had no 
diplomatic relations other than with his brother-in-law. So, 
I'm really confused by why it's not just simple enough to not 
negotiate, but to sit down and say, ``Here's the deal. This is 
it. These are the outlines of it, for real, and we're willing 
to live with you bad guys.'' Unless you're not. And if you're 
not, you're living with other bad guys in other places of the 
world, in China there's not all good guys. In other places 
you're living with guys not as bad, but sure don't treat their 
people real nicely.
    And that's what confuses me, and confuses, I think, a lot 
of other people. So, in the few minutes I have left, let me ask 
just two questions: Are you willing to live with the bad guys 
if you have a verifiable agreement that they've given up, not 
their prison camps, not their maltreatment of their folks, not 
their legal system, not those--if they're willing to give up 
nuclear weapons, nuclear capacity to build the weapons, and the 
capacity to throw those weapons on missiles. Are you willing to 
live with the bad guy? That's my question. Either one of you. 
At the risk of being fired, probably, but go ahead, give it a 
shot. [Laughter.]
    Mr. Hill. Look, we have a negotiation aimed at 
denuclearizing North Korea. That's the purpose of the 
negotiation. Now, when you ask----
    Senator Biden. You're not doing real well at it, Chris.
    Mr. Hill. Well, it takes two to negotiate, in this case six 
to negotiate, and we only have five.
    Senator Biden. Why do you only have five?
    Mr. Hill. But, we are prepared to reach a negotiation 
which, at the end of the day, would denuclearize North Korea, 
and in return, we're prepared to do, and to support several 
issues, or several items that I think could help North Korea to 
have a much better future.
    We are not prepared, however, to be silent on some of these 
other issues which you mentioned. We have a duty to ourselves--
--
    Senator Biden. Look, I don't mean to interrupt you----
    Mr. Hill. We need to be clear about human rights and other 
issues, and we'll continue to do that.
    Senator Biden. Your statement speaks clearly for itself. 
It's a little bit like, when I'm negotiating with somebody 
about whether or not they're going to sell me a piece of 
property, it's not useful for me to point out how fat they are, 
and how they really have, really need some serious dental work, 
and you know that ugly car they drive that pollutes the 
neighborhood, I'm not going to buy this property until you stop 
polluting the neighborhood.
    Look, we seem to be able to live with other countries whose 
human rights violations are serious, or who support terror or 
have been quiet about terror, and who have been involved with 
weapons of mass destruction programs, like Pakistan, and who 
are engaged in missile proliferation, and who have a 
conventional force posture we don't like, and we've operated--
this administration has adopted a policy, I think that's 
correct for some of those countries--that says if we go in 
there and begin to change the economic circumstance, expose 
them, put them into the cold light of day, to use a phrase in a 
different context used by Justice Oliver Wendell Holmes, 
``sunlight is the best disinfectant,'' that those other bad 
things will stop. That they'll stop. Or that they will be 
atrophied. But you in your statement say, of course, to achieve 
a wholly transformed relationship with the United States, Korea 
must address other issues of concern to us, and must change 
their behavior in human rights, address the issues underlying 
its appearance on the U.S. list of State Department terrorists, 
eliminate all weapons, et cetera. So you guys have chock-fulled 
this thing, and I understand, if that's your position, I 
respect it. But that's the problem we're all having--figuring 
out what your position is. And your position is, unless human 
rights, terrorist support, WMD, missile proliferation, and 
conventional forces are all part of the negotiation, there's 
not a deal. That being the case, we've got a problem, because 
guess what? The rest of the deal, they ain't ready to get in on 
a deal about terror and about these other issues, they don't 
relate to it. You know it, and I know it. Because guess what? 
If they get in a deal, then you can turn to them and say, 
``Hey, what about you? Hey, China, what about you?'' Kind of a 
problem, Chris. Kind of a problem, Mr. Secretary. And so, I 
just, I don't for a moment countenance their human rights 
violations or support of terror, or the rest, but let me tell 
you, my dad before he died used to say, ``Son, if everything's 
equally important to you, nothing's important to you.'' There's 
one thing real important to me right now. How to get rid of all 
that plutonium that they've got stockpiled and are building 
weapons, the new plutonium they're making, and the HEU they're 
seeking how to produce. That is obligation, overwhelming, 
number one. And we're not doing that very well, in my view, 
because we're still negotiating with ourselves. I thank you 
very much, as you can see, I don't feel strongly about this--
thank you. I'm happy for a response, but I----
    Ambassador DeTrani. Just one second, Senator. The proposal 
that we put on the table speaks to what you're mentioning. The 
multilateral security assurances are giving the DPRK those 
security assurances, if they denuclearize comprehensively. They 
will get the multilateral security assurances that give them 
the guarantees.
    Senator Biden [continuing]. Human rights abuses at home?
    Ambassador DeTrani. We want to get into a discussion of 
human rights, we want to get into the discussion of their 
ballistic missiles, their illicit activities----
    Senator Biden. No, I got ballistic--don't confuse the--I'm 
asking specifically. You said you've made that offer. Will that 
offer be forthcoming if they say, ``Great, we ain't changing 
our human rights behavior at all, and we're still with guys 
that we think are liberation fighters.'' Is there still a deal 
there?
    Ambassador DeTrani. We would not move toward normalization. 
That would be a show-stopper on the normalization, but it would 
not be a show-stopper, necessarily, on denuclearization and the 
security assurances, which was the proposal we put on the 
table. The denuclearization and the security assurances and the 
economic cooperation speak to the----
    Senator Biden. As I understand your proposal--security 
assurances are only ``provisional'' until other issues are 
addressed, right?
    Ambassador DeTrani. That's denuclearization, sir, 
comprehensive denuclearization, period.
    Senator Biden. So, are provisional----
    Ambassador DeTrani. Until there is comprehensive 
denuclearization, once their nuclear program is eliminated, 
they will get provisional security----
    Senator Biden. Oh, I'm sorry, I was under the impression it 
said until other issues were addressed, including human rights, 
and including, so--so, they denuclearize completely, and we 
believe that's the case, we are prepared to give absolute 
security assurances.
    Mr. Hill. Yes, we are. We are not prepared to have a fully 
normalized relationship in the absence of movement on these 
other issues.
    Senator Biden. I appreciate--I'm over my time, and the 
acting chairman's been generous, and there's a vote on, and I'm 
going to go vote. I thank you both very, very much.
    Senator Hagel [presiding]. Senator Biden, thank you. 
Gentlemen, welcome.
    You, I'm sure, noted a op-ed in the Wall Street Journal a 
couple of weeks ago by former National Security Advisor Brent 
Scowcroft. Let me mention a couple of points he made in that 
op-ed and then ask for your response.
    General Scowcroft argued, in the May 26 piece, that the 
United States has allowed North Korea to control the diplomatic 
negotiations, while accelerating its nuclear weapons program. 
He proposes that United States gain support from China, Japan, 
and South Korea to pursue a comprehensive approach that would 
demand that North Korea end its nuclear weapons program, in 
return the United States would offer the types of security 
assurances that Pyongyang has sought from the United States and 
work to bring North Korea back into the international 
community. Now, listening to the interplay here, and the 
exchange, Mr. Ambassador, between you and Senator Biden, then 
you agree with what General Scowcroft is saying, and you've 
already done that.
    Ambassador DeTrani. Our proposal, Senator, speaks to those 
issues, exactly. Security assurances, economic cooperation, and 
a roadmap toward normalization of relations when other issues 
are brought into the picture.
    Senator Hagel. So, what General Scowcroft wrote about on 
May 26 is not new, you've already put that on the table.
    Ambassador DeTrani. We put a general proposal on the table, 
Senator, that we would pursue in working groups and then future 
plenary sessions, but we never had the opportunity of pursuing 
it and getting into the particulars of the proposal.
    Senator Hagel. And the other four members of the party of 
six are party to that and agree with it.
    Ambassador DeTrani. They were all briefed on it and they 
were all supportive of the proposal.
    Senator Hagel. Do you think the United States should look 
at the possibility of being more flexible in negotiations as we 
pursue, not only what you have talked about here laying this 
proposal down, but looking ahead, flexibility like more 
bilateral negotiations, are we prepared, are we thinking in 
ways that are enlarging the negotiations?
    Mr. Hill. Let me say, first of all, we are prepared to have 
bilateral contacts and to meet bilaterally with the North 
Koreans within the six-party process. What we do not want to do 
is have bilateral contacts reach such a stage that the six-
party process becomes irrelevant, we leave out our partners 
who, at the end of the day, are going to have to participate in 
a settlement, and we are looking in terms of the economic 
package, at substantial amounts of assistance, which would 
probably be coming from Japan and South Korea. So, we can't 
have a situation where we have shifted to a bilateral mode, and 
leave them out of it until the end of it when we give them a 
check. So, we need to be close to our partners in this process, 
but that does not mean that we can't have these contacts. If we 
do have these contacts--and frankly speaking, we would have a 
lot more bilateral contacts--if the North Koreans came back to 
the six-party process.
    Senator Hagel. You agree with Scowcroft's point that the 
North Koreans have controlled the diplomatic negotiations while 
accelerating their own nuclear program over the last year? So, 
the question is: Where have we won here, where have we gained? 
Where are we making progress, based on the current policy that 
we have?
    Mr. Hill. Well, first of all, I think it's increasingly 
clear to everybody that the problem in the talks is not the 
United States. We have been flexible----
    Senator Hagel. Well, I don't think that's the issue, Mr. 
Secretary, and I'm not implying that it's our fault. But 
obviously, we have not seen progress. Obviously we've got 
difficulties here. So, I think most of us, just with an element 
of common sense would come to some conclusion that maybe 
something's not working. Now, I'm not trying to put the onus on 
the United States here, at all. Obviously we've got a 
difficult, complicated problem. That moves me to another issue 
that I have heard the administration talk about. There seems to 
be some confusion, at least coming from different parts of the 
administration, on moving this to the Security Council of the 
United Nations. What would we gain by that, and what would be 
the options? Would we be interested in doing that? There's been 
confusion in the press the last 2 weeks of senior 
administration officials saying we were close to that decision, 
and then others saying, no, we're not close to that. Could you 
clarify that, and then give this committee what we would gain, 
what we could expect the options to be, if we move to the 
United Nations?
    Mr. Hill. I think Secretary Rice and Secretary Rumsfeld 
clarified this issue, and I will do so as well, which is that 
we do not have a plan to bring this to the Security Council, 
that's a right we reserve, and we could do so in the future, 
but it is not something we're planning to do now. Now, when we 
do bring it, or if we do bring it to the Security Council, it 
would be for the purpose of achieving something. It's not 
simply a question of going to the Security Council for the sake 
of going to the Security Council. There has to be a reason, and 
there has to be a proposal that we feel we could have the 
support in the Security Council to move ahead with. And we are 
not prepared, at this point, to go to the Security Council. So, 
I think it's important that as we speculate, or as people 
speculate, about what could follow the six-party process, the 
concern I have is the more speculation there is on what 
follows, the more we undermine what, I think everyone agrees, 
is the best way to solve this.
    Senator Hagel. What would we, for example, what would we be 
expecting to achieve, to your point, we would only do this in 
order to achieve something--what could we achieve, what would 
we be likely to achieve, or what's possible to achieve?
    Mr. Hill. Presumably, one would seek a resolution, and one 
would seek to have the resolution passed, that is, without 
vetoes. And with the requisite nine votes.
    Senator Hagel. But what would that resolution achieve? What 
would it do? What would tangibly move the effort, denuclearize 
the peninsula, as you have noted, is the objective of our 
efforts.
    Mr. Hill. I'm speaking in very hypothetical terms, which is 
very foreign territory for a diplomat, but you could have a 
resolution where you put more political pressure on North 
Korea, you could have a resolution where you put economic 
pressure on North Korea, you could have a resolution that 
further isolates North Korea. I think there are a number of 
ways one could go, but I think what's important is that you do 
it when you have to do it, and when you engage in it, you are 
successful. I think what we don't want to do is go to the 
Security Council and not be successful.
    Senator Hagel. Are we talking about sanctions? Is that a 
possibility?
    Mr. Hill. Again, our policy is the six-party process, and 
our policy is to get this process going, and to get it going by 
the common efforts of the five parties to bring the sixth party 
to the table, and so I don't want to speculate on what, 
precisely, we might do at a latter stage.
    Senator Hagel. What are we doing to reengage the talks? As 
you have noted, that being your objective to get these talks 
moving again so we could----
    Mr. Hill. Well, first of all, I want to emphasize we work 
very closely with the other parties, and we had a very, very 
good set of meetings with the South Korean President, last 
week, who came in for a 24-hour visit, about doing all we can 
to get the six-party process going. We talked to the South 
Koreans about their own inter-Korean dialog, their own contacts 
with the North Koreans. I have been engaged with my Chinese 
counterparts, discussing various ways they can encourage the 
North Koreans back to the table. I've also talked at length 
with the Japanese--we're in constant diplomatic contact with 
these other parties. In addition to that, Ambassador DeTrani 
and the Director of Korean Affairs, Jim Foster, went up to New 
York on May 13, and made clear to the North Koreans directly 
what we have said, publicly, about our policy toward North 
Korea. And last Monday, the North Koreans invited Mr. Foster 
and Ambassador DeTrani back for further discussion. The 
discussion was very positive. They made clear they are 
committed to the six-party process, however, they did not give 
the date that we need to have in order for this process to go 
forward. So, in short, we are using the contacts directly with 
the North Koreans, we are also working with other parties in 
the six-party process.
    Senator Hagel. So, you feel some element of confidence that 
the Six-Party Talks will resume soon?
    Mr. Hill. This is a very, very tough issue. We are talking 
about a program that's been around for several decades, we're 
talking about a country that does not like to play by the 
rules, so we're--this is a tough problem, but I am confident 
that we are on the right track with the six-party process, and 
will eventually get there.
    Senator Hagel. And even though we have not seen a lot of 
progress and movement here in the last year, you don't think 
that there's any reason to expand our thinking as to other 
options in dealing with the North Koreans?
    Mr. Hill. I think it's important to expand our thinking. I 
think it's important to be considering what other options are 
out there, what we can possibly do. But I think it's important, 
also, not to be talking too publicly about other options, 
because I think that undermines the six-party process, that 
makes people convinced that we're moving away from the six-
party process, and that is the wrong impression to give.
    Senator Hagel. So, I understand if you would not want to, 
nor should you, talk about that possibility in an open hearing, 
but let me ask you this--is that something that you are 
thinking about? Is that something we can talk about privately, 
quietly?
    Mr. Hill. I think it's important--we need to solve this 
problem. We need to solve the problem of North Korean nuclear 
weapons. We have a lot of options, but we don't have the option 
of walking away from this one. So, we do have to be thinking, 
and I read that op-ed piece, I've looked through that op-ed 
piece. I read a lot of op-ed pieces because I want to absorb as 
much thinking as possible. And of course we have discussions, 
and I would be honored to have them with you about how we can 
solve this problem, because this problem has to be solved.
    Senator Hagel. Ambassador DeTrani, would you care to 
comment on anything here that you've just heard?
    Ambassador DeTrani. No, Senator, I agree fully with the 
Secretary. One point I would make is a lot relies on the DPRK 
to make a strategic decision. We could come up with new 
proposals, and we've had the bilaterals that complements what 
we're doing with the other four countries to get them to 
convince the DPRK to come back to the table. And I think what 
we've seen is progress working with our, if you'll allow, our 
partners. Because as we have approached the DPRK in New York, 
saying we recognize them as a sovereign state, no intention to 
attack or invade--as the Secretary has made very clear in his 
statements, the other countries are saying, ``Why is the DPRK 
not coming back to this process, if they're truly interested in 
security assurances and economic reforms, movement toward 
normalized relations with their neighbors?'' And that's going 
to be the pressure, or the element that has to affect, I 
believe, in the longer term, the DPRK. Because the United 
States has been forthcoming, and I think our partners realize 
we have been forthcoming in this process.
    Senator Hagel. Well, that leads me back to where I started, 
and I'm going to turn back to the chairman, it seems to me 
whatever the motivations are--and as Senator Biden noted, and I 
think we all appreciate what you're dealing with--no one is 
quite sure. So, therefore, I ask again, are we prepared to be 
thinking beyond where we have been, about how to accomplish 
this? Noble, right effort, we agree with it, but obviously, as 
General Scowcroft pointed out in the op-ed, progress has been 
very limited, and again, it's not your fault, but it seems to 
me we're going to have to think a little bit beyond where we 
have been, in order to get where we need to be, or we think we 
need to be. Thank you.
    Mr. Hill. If I could just add, Senator, that the issue is 
to resolve the North Korean nuclear issue and nuclear problem, 
and we believe the six-party process is the best way to achieve 
that, but it's not the only way to achieve that. So, we do need 
to look at all options, and all options will remain on the 
table. But, we believe the six-party process is still the best 
way to go.
    Senator Hagel. Well, I would take you up on your invitation 
to we sit down and visit a little bit about this, and I'm sure 
you'll be talking to the chairman as well in private, as you 
have just said, it's not the only way to go, the six-party 
process, I just go back to a very simple dynamic here. We're 
just not seeing very much progress, and I think that General 
Scowcroft's point is--whether you agree or disagree with his 
point about negotiations being controlled by the North 
Koreans--the fact is, seems to me, in what I have seen, is that 
they have positioned themselves even in a stronger position 
here over the last year, and that may be true, or may not be 
true. But it's my perspective, and I think some others on this 
committee, as well as others in this Congress, and if that is 
the case, or even let's say it's neutral, it seems to me we're 
going to have to be thinking beyond where we've been, in order 
to deal with it--as you have very clearly indicated, and we all 
agree--a very serious problem.
    Mr. Hill. I would look forward to having that discussion 
with you and the chairman. I would respectfully disagree with 
the notion, though, that the North Koreans are in better shape 
as a result of this. I think their economy is in worse shape 
than ever. And I think North Korea needs to come to the table, 
get rid of these weapons and get on with joining the world, 
because as long as they remain isolated like this--and they 
isolate themselves by this--they are not going to succeed. 
Frankly, if they're worried about their survival, they should 
take another course.
    The Chairman. Thank you very much, Senator Hagel. I will 
yield to other Senators as they return, but I'll take the 
occasion to ask additional questions.
    Is there good intelligence sharing among the partners that 
we have around the table? Is our limited intelligence 
supplemented by what others are able to inform us, not only 
about the nuclear issues, but also economic issues in North 
Korea and political issues? How would you characterize the 
expansion of our knowledge as we take a look at that country?
    Ambassador DeTrani. If I may, Mr. Chairman, I believe there 
is excellent intelligence sharing with our partners on all 
issues that affect the DPRK, not only on the nuclear issue, per 
se, but on the socioeconomic situation, et cetera. So I do 
believe that's a very strong element of our relationship with 
our partners.
    The Chairman. Is there equally good sharing with regard to 
interdiction of materials that might be attempted to be 
exported, say, by the North Koreans? Has there been a concern 
that fissile material, or plans, or other aspects of weapons of 
mass destruction might be exported for cash, given the 
desperate needs of the regime? What sort of cooperation do we 
have there?
    Ambassador DeTrani. Mr. Chairman, we have excellent 
cooperation. Not only PSI, the Proliferation Security 
Initiative, has been extremely effective, but the bilateral 
relationships with the respective countries on issues that 
affect proliferation, have been, I believe, extremely 
effective.
    The Chairman. This is not an argument with the panel or 
with colleagues about the virtue of the Six-Party Talks. I 
think that Secretary Hill brought up the interesting and 
important point that I think we discovered in another hearing, 
that our own relations with the Chinese, with the Japanese, 
perhaps with the Koreans, what have you, have been enhanced by 
the fact that we are meeting, frequently. Our diplomats are 
intersecting with other diplomats in a much more robust fashion 
than was the case before the Six-Party Talks. Now, this is not 
a rationale to have Six-Party Talks, namely that we all get to 
know each other, notwithstanding whether we're making headway 
with the North Koreans. But there are plus factors, clearly, in 
terms of the strategic situation, Asia, the general security of 
people, the confidence of parties, our relations with the 
Chinese, the Japanese, and the Koreans. This, in the ultimate 
scheme of things, may be tremendously more important, whatever 
happens to the North Koreans. So, we've noted that as we have 
held the hearings, and we appreciate that.
    Let me now recognize Senator Murkowski for a round of 
questions. We're on a 10-minute round of questions. Senator 
Murkowski, would you like to address the witnesses?
    Senator Murkowski. Thank you. Good morning, Mr. Chairman, 
and good morning, gentlemen. I do apologize, bouncing back and 
forth here I haven't had an opportunity to hear most of your 
comments this morning, so if my questions go into an area that 
you've already been asked, and answered, I do apologize.
    I do want to start by repeating comments that I have made 
to the two of you in private conversations, or in other 
hearings about my support for the overall approach to the Six-
Party Talks and your continued efforts as you try to work 
toward greater bilateral cooperation with North Korea in the 
context of those talks. I think we all recognize that we would 
like to see a uniform policy approach to North Korea, and don't 
want to be cutting our negotiating partners out of the talks.
    Mr. Hill, when I came in earlier, you had made some 
comments that North Korea, I think you used the terminology 
``testing our mettle'' and talked about the advantage that may 
be gained in waiting. And I think you said that there's no--
it's not to our advantage to wait--but it is also not to North 
Korea's advantage to wait. And yet, I guess what I see is that 
with the economic assistance that they continue to get from 
China, from South Korea--is it truly, is that statement still 
so accurate? That it's not necessarily to their advantage to 
wait this out? Who wins if they can hold on longer? It seems 
like the pressure is more on us because we haven't been able to 
push this thing over the edge. We've been waiting now for a 
year to try to get something moving, nothing's happening, so 
who gains by the waiting?
    Mr. Hill. Well, I don't think it's a win-lose situation. 
It's certainly not a win-win, I would call it a lose-lose 
situation. We obviously want to deal with this problem, we 
don't feel time is on our side. The longer this problem goes 
on, the longer the problem of a country holding plutonium, and 
we know they have it, the greater the risk of proliferation. So 
we do feel we're working against the clock on this. But at the 
same time, I don't think the North Koreans can sit back with 
any sense of accomplishment or satisfaction. First of all, 
their economy is truly in abysmal shape, and that's the polite 
version of it. Their industrial capacities continue to shrink, 
and they continue to have serious problems in agriculture and 
just meeting their food needs. In addition, I think they are 
always isolated, but even more so now, and I like to think that 
is because we've put together this six-party process, and we've 
basically held together pretty well, and there's very little 
sense of recrimination between the partners. We have worked--as 
the chairman mentioned--we've been working very closely with 
our other partners, especially China as the host, and I think 
we have a very good relationship with China with respect to the 
six-party process. We have shown the kind of flexibility 
they've been asking for--I might add. We've also worked with 
the Chinese, because of the six-party process, on some of the 
problems of proliferation as well. And we've been concerned 
about North Korean proliferation. So I think it's really helped 
our relationship and that cannot come as good news to the North 
Koreans.
    Senator, you mentioned that North Korea continues to get 
assistance from China and South Korea. But I think--I mentioned 
this earlier--the South Koreans made very clear to the North 
Koreans in their inter-Korean dialog that what they are getting 
now, which is pretty modest--we're talking some tons of 
fertilizer--is a fraction, a small fraction of what they could 
get if they reached an agreement to denuclearize. So, every day 
that North Korea does not reach that agreement, North Korea, I 
think, is losing; losing considerable assistance that they 
would otherwise be getting, especially from South Korea, but 
also from the other parties. So, while North Korea has not made 
the fundamental decision that it needs to make, to do away with 
weapons programs that were started by Kim Jong-il's father, at 
the same time it's a tough decision, and I think they're 
waiting, waiting whether to make that decision, waiting to see 
whether their negotiating position can improve. And I believe 
there's no sign that things are improving for them. So, I was 
asked earlier about whether I feel that this could eventually 
yield results, and I do believe that the logic of the six-party 
process is so powerful that I think it can even be heard in 
Pyongyang. So, I think we need to be a little stubborn, we need 
to understand that we've got a good process, and we need to 
avoid negotiating with ourselves, and otherwise avoid having 
any sense of recrimination. We're going to stay the course, and 
I think this is the right way to get us there.
    Senator Murkowski. So, do you give yourself any deadline?
    Mr. Hill. You know, I have deadlines in my mind. Obviously 
I worry. We're coming up on the 1-year anniversary and we are, 
as I've said before, Americans are known as impatient people. 
But for Heaven's sake, 1 year is a long time, but I would avoid 
artificial deadlines, and focus on how we can solve this 
problem, and the six-party process is the best way to solve it.
    Senator Murkowski. Let me ask you about the level of 
assistance that the United States has been directing toward 
North Korea, clearly a lot lower levels than we have had in 
previous years--do you think that this is diminishing, or 
influencing our leverage with North Korea?
    Mr. Hill. We have been--and many people don't realize 
this--we've been the largest food-aid provider to North Korea, 
largest since their serious agricultural problems began in the 
mid-1990s. We continue to monitor the situation very closely, 
and as we contemplate a response to the World Food Program's 
appeal, we'll do so with three criteria in mind--one, how we 
see the situation in North Korea with respect to the production 
of grains; two, how we see competing situations elsewhere in 
the world, because there's a limited amount of this food that 
can be provided, and; three, we need to look at the monitoring 
conditions--North Korea has traditionally fallen below the 
international standards of monitoring--so that we make sure the 
food aid gets to the right recipients. So, I think in looking 
at the situation, we do so with those criteria in mind. The 
President has made very clear on many occasions, we do not 
politicize food aid. We are not tying our food aid to the six-
party process, we are tying it to the needs of the North Korean 
people, competing needs, and our ability to make sure it gets 
to the right recipients. So, I am not in a position today to 
tell you how we will respond to the World Food Program's appeal 
this year, 2005, except to say that we will do so on the 
merits.
    Senator Murkowski. I would certainly agree with the 
President's position that we don't want to tie the food aid and 
the humanitarian relief to successful implementation, if you 
will, of the Six-Party Talks. We also have to recognize that as 
we move forward with our food programs, working with the NGOs 
that are on the ground for the food distribution, it's through 
these entities, through these agencies, that we get a good deal 
of our information coming out of North Korea, so that's 
something that we want to continue, we don't want to poison 
that relationship.
    I see that the yellow light is on, but I want to ask you 
about Russia's role in the Six-Party Talks, given that Kim 
Jong-il has taken a couple of train tours of Russia lately, is 
he--what's that relationship there, and is Russia being as 
helpful in the Six-Party Talks? You keep referencing China as 
well as South Korea, but what about Russia's role?
    Mr. Hill. First of all, if I could just make one more 
comment on the food aid, there are some very, very courageous 
people who live and work in North Korea who are engaged in the 
distribution and the monitoring of that food aid. I'm referring 
to international NGOs and also people working in the framework 
of the World Food Program who have had restrictions on their 
activities, especially in the fall of 2004. Now, we understand 
the restrictions have been somewhat alleviated this year, 
although again, it doesn't reach world standards. But I think 
we really owe it to these people who are just courageously out 
doing their jobs, to make sure that they can do their jobs.
    With respect to Russia's role, Russia is a full participant 
in the six-party process. I have spoken with my counterpart, 
Ambassador Alexeyev on many occasions and some 3 weeks ago, he 
and I met together and had a very, very full discussion of 
this. Russia absolutely supports the goals of this. They have 
been very clear with the North Koreans where they stand. There 
have been no mixed messages coming from Moscow with respect to 
the need to North Korea to get back to the talks and do so in a 
move to give up their nuclear weapons. Russia has absolutely no 
interest in seeing North Korea emerge as a nuclear state of any 
kind.
    The question, of course, we have is to some extent the same 
question we have of the Chinese, which is--given Russia's 
historical ties to North Korea, given the fact that they have 
very, rather close political connections, in many cases, close 
personal connections, and certainly they have some economic 
connections--the question is: Are they using all of their 
leverage? I think you know, we have made very clear that we 
think everybody should be using whatever leverage they have on 
this country, and we continue to work with the Russians to get 
them to do their part to bring North Korea to the talks, but I 
want to assure you that we are in close contact with our 
Russian colleagues on this.
    The Chairman. Thank you, Senator Murkowski.
    Senator Chafee.
    Senator Chafee. Back in the summer of 2003, we got off on 
the wrong track for whatever reason, and the Chinese in 
particular, PRC, were very critical of us, and some of the 
quotes at the time, the Chinese top diplomats were saying the 
United States does not have a negotiating strategy beyond using 
multilateral talks to pressure North Korea. Wang Li, Chinese 
Foreign Minister, was saying the United States was the main 
obstacle, and he said how the United States is threatening the 
DPRK--this needs to be further discussed in the next round of 
talks--and criticized Washington's ``negative policy,'' his 
quotes, and then Shu Shu Long, a foreign affairs participant 
said, ``there's widespread sense that the United States is the 
problem,'' this is way back in the summer of 2003 as we're 
trying to get the Six-Party Talks going. Do you think we've 
recovered from that debacle of everything that went wrong back 
then?
    Mr. Hill. Well, let me say from my perspective, I've been 
on this account for a couple of months, actually since 
February, and we are working very closely with the Chinese. 
We're not there yet. It's very frustrating because the North 
Koreans haven't come back to the talks, but we're working very 
closely, and I think the type of quotes you just read to me 
from 2003, I don't think you could find such quotes from the 
current time. I think we're working very well, and I think the 
onus for why these talks are not going on is now squarely with 
the DPRK.
    Senator Chafee. And how important is the PRC to these 
talks?
    Mr. Hill. The PRC is the host to the talks, of course. 
They're also the country with, probably, the most leverage, the 
most influence, the most strongest relationship with North 
Korea, so I would say they're very, very important. That 
doesn't mean they're the only element in this, and that's one 
of the reasons we occasionally do have direct contacts with the 
North Koreans. We cannot tell everything to the North Koreans 
through the Chinese, we need to have an ability to go to them 
directly, and that's why Ambassador DeTrani has been up to New 
York some five times since last fall. But China is clearly very 
important.
    But, I will say something else, which is, we have a very 
fundamentally important relationship with China. We deal with 
China on a broad menu of issues. I would put this one at the 
high end. This is a very important issue, and what we want to 
make sure is that, as we go through this very difficult process 
dealing with this country which seems to delight in its 
isolation, North Korea, we want to make sure at the end of the 
day this process brings us all closer together. And I think 
that is what's happening between the United States and China, 
the United States and South Korea, in particular. I would add 
the South Korean and Chinese relations have been better as a 
result of the six-party process. They're in constant 
communication. And also Japan which, as you know, has had some 
difficulties with its Asian neighbors, especially with Korea 
and China. Japan has continued to have very close relationships 
with Korea, with South Korea, and China with respect to the 
six-party process. So it is working. As the chairman said, it 
is perhaps an unintended consequence, some of them can be 
favorable. But we are working so well together that one can 
sort of think ahead to perhaps a time when the six-party 
process will be able to resolve this terrible issue of nuclear 
weapons in North Korea, and then perhaps can deal with other 
issues as well, because we have a neighborhood in Northeast 
Asia that does not have the kind of multilateral ties that it 
should have. I mean this is one of the most important regions 
in the world where a good percentage of the world's exports, 
where the world's industrial production is. And yet there are 
not enough multilateral structures. So, perhaps we can look 
forward to the day where this six-party process can become part 
of that eventual architecture in Northeast Asia. But first 
things first, we have to get through this North Korean nuclear 
issue.
    Senator Chafee. It probably is a keen dilemma to have the 
leverage that the PRC has on North Korea, as you said, that the 
most leverage, the necessity of having them a key part of these 
talks at the same time we're dealing with all the other issues, 
particularly the arms buildup, and the Secretary was in 
Shanghai addressing that, maybe in some ways counterproductive 
to our efforts to get them on the North Korean arms sales to 
Taiwan. These are all difficult issues that the United States 
needs to balance, and where would you put the priorities of 
balancing these issues--you said the top priority is having no 
nuclear weapons in the peninsula at the same time we're, if any 
arms sales are Taiwan are adversely going to affect PRC's help 
in having no nuclear arms in the peninsula.
    Mr. Hill. My comment on the relative priority of the North 
Korean nuclear issue was to say I would put it in the top tier 
of our issues with China. But to be sure, there is no 
relationship in the world today that we have that is more 
complex than the relationship we have with China. It is across 
the board--we deal with them on security issues, we deal with 
the Chinese very fundamentally in economic issues as everyone 
on this committee well knows. So we have many issues we deal 
with the Chinese, and I would put the North Korean nuclear 
issue as in the top tier. But I would also put some of the 
other issues in the top tier, that is, Taiwan, certainly our 
economic relationship.
    Senator Chafee. Thank you, Mr. Chairman, that's all I have. 
Good luck.
    The Chairman. Thank you very much, Senator Chafee.
    Let me just ask about the recent decision by our Government 
to discontinue the recovery of United States remains from North 
Korea. What was the rationale for that decision, and is it a 
part of these negotiations? Or totally outside of them?
    Mr. Hill. Well, first of all, I feel at a bit of a 
disadvantage to speak about this because I'm from the State 
Department, and this is a Defense Department program. But the 
issue from the Defense Department was the question of the terms 
and the conditions under which these teams would go into North 
Korea. And specifically there were communications issues which 
the people in the Defense Department were concerned about, that 
is, our ability to reach these teams, or the ability of these 
teams to reach us at any given hour of the day. This has to do 
with if one of them was ill or injured. These are terms and 
conditions that are followed pretty much the world over. We 
have these recovery operations in many other countries, 
including countries that also have very remote areas and are 
themselves very challenged for medical services, et cetera. So 
I think there was a concern that we could not have, sort of, a 
North Korean exceptionalism. That is, they should have more or 
less the communications that we have with teams in, for 
example, Laos. So it was on that basis that they decided to 
suspend these until they could work out better arrangements.
    The Chairman. At an earlier hearing that the committee 
conducted on North Korea, the whole issue of acceptance of 
North Koreans leaving North Korea came to the fore. Last 
August, Vietnam transported--as I understand--over 400 North 
Korean refugees to Seoul, South Korea. These are persons who 
had made their way to Vietnam through China. We understand that 
officials in South Korea are still discouraging people coming 
from North Korea to the South, quite apart from the 400, just 
in individual cases. I raised the question, at the last 
hearing, of how receptive the United States should be. In other 
words, should our policy be one of allowing North Koreans to 
immigrate to the United States to seek freedom in this way?
    Now, this policy seems to be, not necessarily ambiguous, 
but not very well formulated. What is your judgment about this? 
It appears, at least to us, in raising the questions, that 
there is real value in North Koreans having an opportunity to 
escape to freedom from the regime, as we describe it. 
Furthermore, all the parties involved ought to be receptive of 
this, although we know the Chinese have gone to extraordinary 
means to prevent a single North Korean from getting across the 
border. In the past we dealt, for example, with Eastern Europe 
in the cold war. The idea of people coming from the East to the 
West, we thought, offered considerable progress and leverage in 
negotiations. Do either of you have comments about the 
immigration policy?
    Mr. Hill. Mr. Chairman, we've had, I think, really very 
good discussions with the PRC and the Republic of Korea exactly 
on this issue, and speaking to the need for the United Nations 
Hyde Commission for Refugees to become more of an active player 
on the issue of North Korean refugees coming out of North Korea 
into China. So, we believe we have made some progress, because 
we have defined the issues, and we're speaking of a process 
that addresses the concerns, the need. So there is movement. We 
continue our discussions with the PRC and with the Republic of 
Korea. We have not seen a diminution of interest in receiving 
refugees on the part of the ROK. There are security concerns 
and there's vetting necessary to determine if people coming 
into the country are legitimate refugees seeking refuge in the 
ROK, and that applies for the United States also, Mr. Chairman. 
We have a process that we do the screening, working with the 
ROK to determine who these individuals are, and indeed if they 
express an interest in coming to the United States. So they are 
vetted accordingly. This is an ongoing process and your points 
are very valid, and we are working this very aggressively.
    The Chairman. I'm pleased to hear that. It seems to me 
there's real value in that process of allowing people to come, 
having some persons from North Korea outside the system that 
may communicate back into the system, by some stage.
    Another question, quickly. We have talked about potential 
arguments or discussion within our own administration, but 
there are recurring reports that within the North Korean 
administration there are the so-called ``hardliners''--persons 
who see no value whatever in these negotiations--and that the 
best course for North Korea, sad as the case may be for the 
people, the economy, and the politics, is to hang on and to 
keep the bomb, if they have one. Whereas others, who may be 
more familiar with the rest of the world, realize that the 
whole society is falling farther and farther behind, in terms 
of world competition. This is a world in which these people 
have to live almost totally out of the picture. Therefore we 
may see opportunity, potentially, in talking about economic 
issues, about trade, about people coming back and forth across 
boundaries, as perhaps the salvation of a very difficult 
predicament.
    What is your sense as you meet with the North Koreans about 
their own conflicted negotiating positions?
    Mr. Hill. Mr. Chairman, we do hear in the bilaterals we 
have in Beijing when we had the plenary sessions and working 
group sessions, that there is a sense that there is an element 
in the DPRK that speaks to retaining a nuclear weapons 
capability. From where we sit, we see the ultimate 
decisionmaker as Kim Jong-il, and indeed, if Kim Jong-il is 
serious about the economic reforms that we see, that have 
kicked in since a few years ago, and is very concerned about 
international legitimacy, and ultimately normalizing a 
relationship with the United States and other countries, we 
would think Kim Jong-il could, and would, make that decision to 
have a comprehensive denuclearization. While elements in the 
military may be clamoring for retention of a nuclear 
capability, we do believe the overriding imperative to look at 
the economic reforms, the well being of the people who--because 
of the economic strains in the system--speak to 
denuclearization and international legitimacy, and moving on 
that path.
    The Chairman. Thank you.
    Ambassador DeTrani. Mr. Chairman, this is one of the real 
tough questions we face, which is to try to get into the minds 
of the North Korean decisionmakers, because for them to be 
pursuing nuclear weapons programs they bring not only great 
hardship, but also I would add, great peril to their country 
because one way or the other they're not going to have these 
systems. And so the real issue for them is what are the terms 
under which they'll give them up.
    But one must look at the enormous problems that that 
economy faces. It's a country of 23 million people. I mean, 
I've served in countries far smaller than that. Twenty three 
million souls there, and it is hard to find, when you look at 
all of the problems they're currently having in agriculture and 
industrial production, health care, et cetera, it's hard to see 
how nuclear weapons could play any role, whatsoever, in 
addressing these. So, people who advocate these nuclear 
programs--and we have to acknowledge that this has gone on for 
several decades--do so apparently as an article of faith that 
somehow has nothing to do with their objective circumstances, 
and everything to do with some notion of prestige. These are 
programs that are a dead loser for North Korea, and so one 
hopes that eventually the people who really make the decisions 
will understand that and come forward, and we can cut a deal 
with them.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, and thank you 
for holding this important hearing.
    Ambassador Hill, how was the recent meeting between 
President Bush and the South Korean President received in South 
Korea? Did South Koreans find the meeting constructive, or did 
it just really confirm the differences between our respective 
approaches to the North Korean issue?
    Mr. Hill. I track the internal situation in South Korea 
very closely, in fact, my family is still living there until my 
daughter graduates from high school. The overwhelming response 
to last Friday's summit was very, very positive. I think 
President Roh and President Bush went into the meeting with a 
sense that they had a real common endeavor, and certainly 
emerging from the meeting there was a real sense that we were 
together on this. President Roh Moo-hyun has been, I think, 
very much a proponent of continuing the inter-Korean dialog, 
and so are we, because we think that South Korea needs to have 
this kind of direct dialog with North Korea and what we look 
for from the South Koreans is to be able to coordinate and keep 
each other informed as we go forward. And this meeting, I 
think, was a very good opportunity to discuss how things are 
proceeding in our Korean dialog, and also to coordinate our 
approaches on the six-party process, so I would say with great 
assurance right now, that we are really in synch with the South 
Koreans.
    The issues--there are issues that, from time to time, come 
up--but right now, we are very much in synch on the issue of 
doing all we can to get the six-party process going.
    Senator Feingold. Let me ask you about who North Korea's 
largest trading partners are, and has their trade increased or 
decreased in the last 3 years? What about the level of direct 
foreign investment in North Korea?
    Mr. Hill. Analyzing North Korean statistics is a full-time 
job, but I would say the trade with China has increased in 
recent years. I think it's increased primarily because trade 
with other countries--notably with Japan--has decreased. In 
addition, I think the continued weaknesses of the factories, of 
the industrial plant in North Korea, the fact that factory 
utilization is at a very, very low percentage is causing 
people, individuals, private people, to bring things over the 
Chinese border to sell them. So it's a process of reform, 
although I think that's too polite a term for it. I think it's 
more a process of the general weakness of the state economy 
that there is more and more privatization. And this 
privatization, I think, is bringing in imports from China. Let 
me ask Mr. DeTrani, though, to follow up on this.
    Ambassador DeTrani. I totally agree with the Secretary. 
Trade has increased with the PRC, investment accordingly has 
gone up a bit since we have the statistics. But North Korea is 
in dire shape, economically, as we all know.
    Senator Feingold. The reason I ask is to get a sense of 
their overall--how much pressure they're feeling. So, what I 
want to know, is the decrease in Japanese trade and other trade 
being made up by sufficient Chinese trade--I know it's probably 
hard to quantify--but I'm trying to get a sense if they're 
feeling pressure from a loss of trade or not.
    Ambassador DeTrani. They feel immediate pressure right now, 
Senator, on the food situation, as we recently saw with the 
200,000 metric tons of food from the ROK, and they're looking 
for an additional 300,000. The agricultural sector is not in 
good shape, they may have some problems there, and 
infrastructure problems, and so forth. And a number of 
investors from Western Europe are looking at their investments 
there to determine how viable they are in the short and longer 
term. So there are very, very definite systemic economic 
problems in the DPRK that speak to these issues.
    Senator Feingold. So, if I were to say guess, take a guess 
overall, if they are perhaps feeling some pressure because of 
overall loss of trade and investment, would that be a fair 
statement, despite the increase in trade with the PRC?
    Ambassador DeTrani. I would agree with that. South 
Koreans--I made this comment earlier before you were able to 
attend, Senator--the South Koreans have made very clear to the 
North Koreans that what they are able to do in terms of 
economic assistance is going to be minimal until the North 
Koreans come to the six-party process, and agree to give up 
their nuclear program. So South Korea is providing fertilizer 
and has some industrial arrangements in a border town called 
Kaesong, but overall these programs are going to be very much 
attenuated, and the South Koreans made that clear to their 
North Korean counterparts a couple of weeks ago at their first 
round of this inter-Korean dialog, that these programs are 
going to be very, very small until North Korea comes to the 
table.
    Senator Feingold. Finally, I know this question's been 
asked in different forms already, but I'd like to try one other 
approach--the Six-Party Talks have been stalled for over a 
year, and it seems unclear whether or not recent North Korean 
statements about a willingness to return to the negotiating 
table will actually result in a resumption of the talks. It 
seems that at this point we're simply waiting for the North 
Koreans to rejoin the talks while they may well be continuing 
to produce nuclear weapons. Why does the administration persist 
in pursuing a policy that to date has been--at least in my 
view--utterly ineffective, and keeps North Korea in the 
driver's seat? Ambassador.
    Ambassador DeTrani. Well, we believe that the six-party 
process is the best way to proceed. We believe that it brings 
all the relevant players to the table, that when there is a 
solution, each of these players will have a role to play, and, 
therefore, they need to be at the table. The time is long 
passed when the United States would negotiate over the head of 
South Korea, for example. South Korea is a serious player in 
the world, and they deserve a seat at the table. So, we believe 
this is the right way to go. We believe it is a flexible and 
broad platform on which we can build a number of other 
structures, including bilateral talks within that six-party 
platform. So we believe that we have the right format for 
these, to deal with the problem. Now, the North Koreans have 
failed to come to the table. So, of course, it's understandable 
that people look at the format, but I don't think we have a 
problem of format. I think we have a fundamental problem on the 
part of the North Koreans that they are not prepared yet to 
give up their weapons. To address that, we need to put pressure 
on them, not only our own, but also through other participants 
in the process. I think we need to show the North Koreans that 
we are unified, and I think we're doing that, and I would say 
the pressure is mounting on North Korea to come back to the 
table.
    To be sure, we are looking at a range of options, but to 
speculate about options at this point, especially to speculate 
about them in public would, I think, undermine the six-party 
process.
    Senator Feingold. I understand that and I'm concerned about 
that, and I hear what you're saying about having a good format, 
but can you give me any evidence that suggests that we have the 
right format since we have no sign of success?
    Ambassador DeTrani. Well, first of all, the North Koreans 
came to the first three sessions of the six-party process, and 
the problem has been that at the third session, we tabled a 
pretty comprehensive approach. It was a no-kidding approach, 
aimed at addressing all of the issues that they have raised 
themselves as issues that they felt needed to be solved--that 
is, economic assistance, energy assistance, security 
guarantees, roadmaps to diplomatic cross-recognition, these are 
all the issues that emerged in the earlier sets of talks, and 
we, then, tabled a proposal to address all of these. So, it was 
a moment where we were all saying, ``It's time to really get to 
the table and put your cards down and get on with it.'' And the 
North Koreans have chosen not to return. I don't think they 
chose not to return because they were tired of the process. I 
think they chose not to return because they don't know how to 
respond to this very comprehensive approach that we laid on the 
table. So, I think they are continuing to make up their minds 
about doing away with a multidecades-old program of nuclear 
weapons, and they haven't come to a final decision yet.
    Senator Feingold. So, are you saying at this point that 
there's really nothing more we can do, and we just have to wait 
for the North Koreans to change their mind?
    Mr. Hill. Well, waiting is not a policy, and what we do is 
we work very actively with the other participants in the six-
party process. We're very active with the South Koreans, that 
was part of what was going on last week when Roh Moo-hyun was 
here at the White House. We're working very closely with the 
Chinese. I recently hosted a meeting of the South Korean and 
Japanese negotiators and, as you know, South Korea and Japan 
have had their problems in recent months, but the six-party 
process is an area which both of them have made very clear they 
are not going to see that process suffer because of their 
bilateral problems. So, we are working very closely with these 
parties to see what we can do to put additional pressure on the 
North Koreans. I met with our Russian counterpart, and we've 
had direct contacts with the North Koreans to make crystal 
clear what our position is. So, I think, our approach has not 
been to wait, but our approach is to engage our partners and, 
in fact, even to engage North Korea directly through these 
direct contacts that Ambassador DeTrani has headed up to make 
very clear that the offer is on the table and the North Koreans 
ought to come back to that.
    Senator Feingold. Thank you for your answer, and thank you, 
Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold. 
Senator Murkowski, do you have additional questions? Senator 
Chafee, do you have? Yes, Senator Chafee.
    Senator Chafee. Quick followup question to Senator 
Feingold's asking about the process and the format and going 
back, once again, to the summer of 2003. Our top negotiator, 
who resigned, was critical of insisting on the Six-Party Talks 
and at the time he said the administration is making a mistake 
by refusing to conduct sustained one-on-one negotiations, what 
he described as ``drive by meetings'' will not work, ``with a 
current approach of talks in a room crowded with diplomats from 
several nations. And he said, ``without a change in format, the 
prospects for success are very grim.'' And here we are 2 years 
later, he said that in the summer of 2003, and as an example he 
said that, ``the epitome of the wrong-headed approach came at a 
dinner in Beijing in April, after the White House instructed 
James Kelly, they must not hold bilateral talks with the North 
Korean envoy, Li Ghun. Li cornered Kelly at a dinner anyway, 
and announced that North Korea would be willing to end its 
nuclear projects if the United States would change its approach 
toward North Korea, but Kelly had no authority to explore the 
issues with Li, and nothing happened.'' So are we so rigid on 
insisting on these Six-Party Talks that opportunities come up 
that we all want to go forward, we all want to see progress, 
but we're so rigid on insisting on this that we're missing 
opportunities?
    Mr. Hill. Well, Senator, in the summer of 2003 I was not 
engaged in this process, in fact, I think part of that summer I 
was up in Narragansett Bay. But I would emphasize to you that 
our strong conviction that the six-party process is a broad 
enough platform that we can build different structures on it. 
We can certainly have whatever contacts, in whatever format, 
that we need in order to solve this. So, I think the fact is, 
the North Koreans stayed with the process, and only left when 
we tabled a comprehensive approach. And, at that point, I think 
they realized that we had come to a moment in history where 
they had to make a fundamental decision, and I think it's an 
example of a country or a people just at that moment not rising 
to the occasion. So, I do not believe we have a format problem. 
I do not believe we have the problems that were outlined in 
2003. I certainly would plan to conduct these negotiations with 
an eye not just to straightjacket it into a format, but with an 
eye to achieve success, and I would want to take back an 
agreement and see if my Government will back me up on the 
agreement that I can reach. I know Ambassador DeTrani, who 
deals with this every day, is of the same mindset--we want to 
solve this problem, we want to solve this problem on its own 
merits. And then we want to move on to other problems, because 
there's a lot going on in Asia today that we need to be engaged 
in as a country. We need to be working closely with China on a 
variety of issues, we need to be dealing with problems in 
Southeast Asia, and frankly in Northeast Asia, there are enough 
other issues that we need to get to those, we need to get 
through this problem, and we will.
    Ambassador DeTrani. If I may add to Secretary Hill, 
Senator, at the two last sessions, the most recent being a year 
ago last June, and then prior to that, February 2004, we had 
bilateral sessions. The last bilateral in June was over 2\1/2\ 
hours. We've had working group sessions, two working group 
sessions, we've had--as Secretary Hill indicated, a number of 
encounters in New York, going up to New York. So we've had 
ample opportunity to express our views, but indeed to hear the 
DPRK's views. And our views are very clear--we're prepared to 
address the security concerns, the economic cooperation, and a 
roadmap toward normalization, but we're also very clear on 
comprehensive denuclearization to include the uranium 
enrichment program that has brought us to the situation that 
we're at right now. And that's a decision the DPRK has to make, 
should make, and indeed, some would argue, maybe that's why 
they weren't back at the table in September. So we have had 
ample opportunity--in an open six-party forum--but also in a 
bilateral forum, to express all views on that. Indeed, I think 
our partners realize we've been very flexible in our approach 
to the process of addressing the issue.
    Senator Chafee. One quick question. In your own experience, 
have those bilateral talks been more productive than the Six-
Party Talks?
    Ambassador DeTrani. They have not, Senator. Let me just 
tell you, we've crystallized, we've made our positions 
extremely clear, we've shown a willingness to hear anything 
they have on their side, but with respect to forward movement, 
we have not had the forward movement.
    The Chairman. Thank you very much, Mr. Chafee.
    What sort of public diplomacy--if you can use that word 
constructively--are we employing with regard to North Korea? 
And if we do not have a program of public diplomacy, through 
electronic means, are we able to broadcast into the country? 
Are there any computers in the country? Of all of the ways in 
which messages get to people throughout the world now, in very 
sophisticated ways that are available to us, of what have we 
availed ourselves with in this technology?
    Ambassador DeTrani. Mr. Chairman, the Voice of America, 
Radio Free Asia, certainly the foreign broadcast media, they do 
reach the DPRK. A significant amount of jamming goes on, but 
these broadcasts are received by a number of the residents of 
the DPRK. So there is information coming in, and as Secretary 
Hill indicated a minute ago, there is more opportunity 
because--if you will--more goods are reaching the DPRK from 
China--officially, unofficially, through the black market and 
so forth--so there's more information reaching the people, 
citizens of the DPRK.
    The Chairman. Is there any evidence that this information 
leads the citizens to do anything? Or is this absorbed? It's a 
very oppressive state. One cannot participate in public 
meetings and what have you, but I'm just curious if we have 
evidence, knowledge, of whether the outside world, at all, 
affects dialog within the country?
    Ambassador DeTrani. Anecdotally we've heard where people in 
the DPRK have told others there that they are hearing these 
broadcasts and comparing them to what they're hearing from the 
state broadcasts and so forth. That confuses them a bit, and 
they're not sure what the truth is. We hear some of this from 
refugees. So the information coming in is certainly a catalyst 
for people to think about issues.
    The Chairman. Senator Obama.
    Senator Obama. Thank you very much, Mr. Chairman, and I 
know I'm the last person between you and getting out of here, 
so I'll be relatively brief.
    When we had some testimony from you in this committee, 
Ambassador Hill, just a couple of days ago, I asked about 
China, and unfortunately because of votes and so forth I missed 
some of your previous testimony--if I'm going over old ground, 
please let me know.
    I'm trying to get a sense at this point as to whether we 
think that China still retains sufficient leverage over North 
Korea in getting them back to the talks, or do we feel that 
it's important for us to work through different channels in 
order to facilitate the type of constructive dialog that is 
necessary?
    Mr. Hill. Actually, Senator, we have talked about China, 
but it's entirely appropriate that we continue to do so, 
because it is a very, very important element in this whole 
equation--China is the host of the six-party process, they have 
the closest relationship with North Korea, and they have much 
more leverage with the North Koreans than any of the other 
participants, including Russia.
    That said, I think it's important for us not to believe 
that China's the only source of leverage on North Korea, and I 
think all of the participants need to do their part to get 
North Korea to the table. Russia, for example, has some 
leverage with North Korea. And frankly, I think we have 
leverage with North Korea, and I think it was with that in mind 
that we had our contacts with the North Koreans in May and 
June, and will continue that in this channel, this so-called 
New York channel. The purpose is, we need a channel to give 
information, to give messages to the North Koreans, and not to 
pass messages through a third party. We need the ability to 
pass messages directly. So while we do believe that China is 
very much a key country in this six-party process, it's not the 
only one.
    Senator Obama. Let me ask the question in a slightly 
different way. China's strategic interests in this situation--
do they rise to the same level as ours in terms of keeping 
North Korea nuclear free? Or, strategically, do they say to 
themselves, ``This is something that America cares deeply 
about, we're less concerned about it, we may go along and 
assist the Americans, or we may not, depending on what our 
bilateral relationship is, but it's not something that we 
ourselves are particularly invested in.'' Is that their 
position? Or do they share the same bottom line concern that 
North Korea should not have on operable nuclear weapons 
capacity?
    Mr. Hill. I think they absolutely share the same bottom-
line position, they have no interest in seeing North Korea 
become a nuclear country. They know what that would mean in the 
region, they know what that could mean in terms of other 
countries believing that they have to go nuclear. I think they 
tend to be less concerned than we do about the potential that 
North Korea could sell nuclear materials on the black market 
and that they could end up with some terrorist organization. We 
have a lot of experience tracking how terrorist organizations 
operate in the world, and we believe it's quite possible for a 
country, if it has fissile material, to try to sell that 
through surreptitious channels. We are also keenly aware of the 
fact that North Korea, as a state, conducts many illicit 
activities in the area, money laundering, and other illicit 
trade. So we tend to be more concerned on that score than 
sometimes--as a matter of analysis--than sometimes the Chinese 
are. It doesn't mean the Chinese would countenance it or say 
it's okay. It's just that they don't believe the North Koreans 
would do that, and we don't see a reason why they would not try 
to do that. So, we do have a difference in perceptions from 
time to time. But in terms of the bottom line, the Chinese have 
absolutely no interest in seeing North Korea go nuclear, and I 
think the Chinese are aware that the United States in Northeast 
Asia is going to work with our allies to prevent proliferation. 
I mean, none of our allies in the region have gone nuclear. I 
think the Chinese understand what we're talking about; we would 
expect them to do the same with North Korea.
    Senator Obama. Can we maintain a credible threat of 
sanctions without the Chinese going along?
    Mr. Hill. I think if one gets into the area of economic 
sanctions, sanctions would be much enhanced by the 
participation of China. North Korea's overland trade is through 
Russia to some small extent, and through China to a great 
extent; otherwise its trade is by sea. So we realize that we 
need China certainly, and perhaps Russia as well, to make 
sanctions be very effective. That said, just because something 
can't be airtight doesn't mean it ought not to be done.
    Senator Obama. Okay, let me go back to a question that 
Senator Biden raised. As I would summarize Senator Biden's 
basic point--there seems to be a lack of clarity with respect 
to what we're asking of the North Koreans. Are we asking, 
simply, that they get rid of their nukes, or are we asking that 
they get rid of their nukes and also start running their 
country in a way that meets the basic needs of the North Korean 
people? And, it strikes me that the administration, because of 
its strong rhetoric, may have boxed itself in to a point where 
it may not be sufficient to focus on the nuclear issue because 
North Korea is still going to be on the list of evil empires, 
and causing the North Koreans to be wary of changing their 
behavior. How do you respond to that question? I know you said 
that human rights are important, and it's important that we 
continue to talk about those as we do in countries all across 
the world. I agree. What is also true, and I think Senator 
Biden made this point, is that there are a lot of unsavory 
characters that we deal with--we may not want to, but we do--
because there are some larger strategic interests that are 
involved. Do you feel at this point that our distaste for the 
regime in North Korea precludes us from being able to send them 
a strong signal that if you do x then these benefits will 
follow?
    Mr. Hill. I'd like to say it's the distaste for the 
behavior of the regime, that is, for things the regime is 
doing.
    What we are trying to do is negotiate a settlement of the 
North Korean nuclear problem. To be sure, our own ability to 
achieve full normalization with North Korea, our own ability to 
achieve an excellent bilateral relationship with North Korea is 
absolutely tied to resolution of these other issues. We will 
continue to speak out on the issue of human rights, for 
example----
    Senator Obama. Sorry to interrupt, but nobody is 
anticipating the United States will suddenly have the same 
bilateral relations with North Korea as we do with New Zealand 
any time soon. That's not the question. The question is: Can we 
say to the North Koreans, if you stand down on your nuclear 
weapons, these incentives will follow, and hostilities will be 
lessened, even though we expect that they would still be a 
regime that violates human rights?
    Mr. Hill. We have made very clear to the North Koreans, and 
I think the North Koreans understand this, that substantial 
benefits will flow from a decision on their part to do away 
with their nuclear programs. And that was the purpose of our 
June proposal, to put on the table what those benefits are. And 
we told the North Koreans to think about it, come back and 
respond, and that's what we're waiting for. I think the real 
issue here, it's not that they don't know the benefits, but 
they simply haven't made the fundamental decision whether they 
want to give up on being a nuclear state. And that is the one 
outcome that from our point of view, we are not negotiating a 
reduction in their nuclear, their fissile material, we are 
negotiating an end to the program, an end that they--in a 
sense--cannot then rekindle the program at a later date when 
they need more economic assistance. It has to be an end. So, I 
think that is a very fundamental decision for them, and they 
clearly have not been prepared to make that decision.
    Senator Obama. Okay. Mr. Chairman, I appreciate you waiting 
for me, and I appreciate both of you taking the time to come 
in.
    The Chairman. Thank you, Senator Obama, and I echo those 
sentiments. We appreciate both of you and the work that you're 
doing. I would simply recognize for the record that you have 
appeared before our committee in closed sessions. We felt it 
was very important that we have, today, an open session that 
could be shared with the American people, as well as the rest 
of the world.
    The hearing is adjourned.
    [Whereupon, the hearing was adjourned.]

                                  <all>

</pre></body></html>
